TN

summa (C1QCKLE

* E-Mail Address:
Omaha, Nebraska 68102-1214 Legal B riefs contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 19-1184

NIKKI BRUNI; JULIE COSENTINO;
CYNTHIA RINALDI; KATHLEEN LASLOW;
AND PATRICK MALLEY,
Petitioners,
v.
CITY OF PITTSBURGH; PITTSBURGH CITY COUNCIL;
AND MAYOR OF PITTSBURGH,

Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF AMICUS
CURIAE ELEANOR MCCULLEN IN SUPPORT OF PETITIONERS in the above entitled case
complies with the typeface requirement of Supreme Court Rule 33.1(b), being prepared in New
Century Schoolbook 12 point for the text and 10 point for the footnotes, and this brief contains
4346 words, excluding the parts that are exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 29th day of April, 2020.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

pele nara] Aone Bowe Oondaneh. Chile.

Notary Public Affiant
